                OIG
                OFFICE OF INSPECTOR GENERAL


                                                          Catalyst for Improving the Environment



Audit Report




              Costs Claimed by Central States Air
              Resource Agencies Association
              Under EPA Assistance Agreement
              Nos. X996940-01 and X986516-01

              Report No. 2003-1-00087


              March 31, 2003




This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. The report represents the
opinion of the OIG and findings contained in this report do not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
Report Contributors:                          Keith Reichard
                                              Margaret Bastin
                                              Juliet Ober




Abbreviations

CenSARA                Central States Air Resource Agencies Association
CFR                    Code of Federal Regulations
EPA                    Environmental Protection Agency
FSR                    Financial Status Reports
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460



                                                                                              OFFICE OF
                                                                                         INSPECTOR GENERAL




                                           March 31, 2003

MEMORANDUM

SUBJECT:       Report No. 2003-1-00087
               Costs Claimed by Central States Air Resource Agencies Association
               Under EPA Assistance Agreement Nos. X996940-01 and X986516-01


FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Lynda F. Carroll
               Assistant Regional Administrator
                for Management, Region 6

We have examined the costs claimed by the Central States Air Resource Agencies Association
(CenSARA), Oklahoma City, Oklahoma, under EPA Assistance Agreement Nos. X996940-01 and
X986516-01. Agreement No. X996940-01 provided funding to establish the Regional Multi-State
Organization, consisting of the states of Arkansas, Iowa, Kansas, Louisiana, Minnesota, Missouri,
Nebraska, Oklahoma, and Texas, as well as several local governments. No. X986516-01 provided
funding for the establishment of the infrastructure for a Regional Planning Body for CenSARA.

We questioned the total Federal share claimed of $1,644,618 as unsupported, because CenSARA did
not comply with the Federal rules, regulations, and terms of the assistance agreements.

This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final Environmental Protection
Agency (EPA) position. The OIG has no objection to the release of this report to any member of the
public upon request.

On July 30, 2002, we issued a draft report to CenSARA and Region 6 for comments. On September
16, 2002, Region 6 provided comments on the draft report, and included CenSARA’s comments
(without CenSARA’s attachments). CenSARA did not agree with the report’s findings. Region 6 took
action on the draft report and issued a “show cause” letter and reclassified CenSARA as a “high-risk
grantee.” CenSARA’s response is included in the report as Appendix A. We held a telephone exit
conference on February 13, 2003, and informed CenSARA of the final results of our audit.
Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and recommendations
in this report. The draft management decision is due within 120 days of the date of this transmittal
memorandum.

If you have questions concerning this report, please contact Keith Reichard, assignment manager, at
(312) 886-3045.




                                                  2
                                      Table of Contents
Independent Accountant’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          Claimed Outlays Do Not Agree with the General Ledger . . . . . . . . . . . . . . . . . . . . . 3

          Inadequate Labor Distribution System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Unsupported Direct Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          Improper Procurement Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



 Appendices
          A          CenSARA’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          B          Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




                                                                    i
ii
                     Independent Accountant’s Report
We have examined the Federal share of costs claimed by the Central States Air Resource Agencies
Association (CenSARA) under the Environmental Protection Agency (EPA) financial assistance
agreements shown in the following table:


                                         Financial Status Report
                                                                Cumulative
        Assistance             Date            Period          Total Outlays
       Agreement No.         Submitted         Ending            Claimed           Federal Share
         X996940-01           10/29/01         9/30/01           $1,508,618            $1,508,618

         X986516-01           10/29/01         9/30/01             $136,000             $136,000

             Total                                               $1,644,618            $1,644,618

CenSARA certified that the outlays reported on each Financial Status Report (Standard Form 269A)
were correct and for the purposes set forth in the agreements. The preparation and certification of each
claim was the responsibility of CenSARA. Our responsibility is to express an opinion on these claims
based on our examination.

We conducted our examination in accordance with the Government Auditing Standards, issued by
the Comptroller General of the United States, and included the procedures we considered necessary
under the circumstances. We used the following criteria to evaluate the costs claimed: Title 31 Code
of Federal Regulations (CFR) Part 205; Title 40 CFR Part 30; Office of Management and Budget
(OMB) Circular A-122; Resource Management Directives 2540, Chapter 5; Treasury Financial
Manual, Chapter 6, Section 2075.30; and the terms and conditions of the assistance agreements. We
believe that our examination provides a reasonable basis for our opinion.

In our opinion, the costs claimed for the two assistance agreements do not present fairly, in all material
respects, the allowable costs incurred in the performance of the assistance agreements in accordance
with the criteria set forth in the assistance agreements. Therefore, we do not consider the claims to be
acceptable as a basis to determine reasonable and allowable costs. The following sections provide
details of our examination and conclusions.


                                                                  Keith Reichard /s/

                                                                  Assignment Manager
                                                                  Field Work End: May 3, 2002


                                                     1
2
                              Results of Audit
          As a result of the deficiencies described below, we have questioned all $1,644,618 in
          costs claimed under the two assistance agreements as unsupported.

Claimed Outlays Do Not Agree with the General Ledger

          We were not able to reconcile the total program outlays claimed for each grant with
          CenSARA’s general ledger. Consequently, we have questioned as unsupported, the
          claim costs of $1,508,618 and $136,000 for grant numbers X996940-01 and
          X986516-01, respectively. Title 40 CFR 30.21(b)(1) states that the recipient’s
          financial management system shall provide for accurate, current, and complete
          disclosure of the financial results of each Federally-sponsored project or program in
          accordance with the reporting requirements set forth in 40 CFR 30.52. Because
          CenSARA’s financial management system did not meet the requirements of 40 CFR
          30.21(b)(1), we were unable to identify the specific costs reported by CenSARA.

          CenSARA reported amounts drawn down as outlays, rather than actual expenditures.
          The outlays are the sum of actual cash disbursements for goods and services, the
          amount of indirect expenses charged, and the value of in-kind contributions applied.
          The following two tables outline the differences between costs claimed on the financial
          status reports (FSRs) and the expenditures in the General Ledger for the audited
          reporting periods:


                                Assistance Agreement No. X996940-01

                                                     Costs        Expenditures
                                     Date           Claimed       per General
                  Period           Submitted        on FSRs         Ledger           Difference

           10/01/97 - 09/30/99      10/19/99        $239,262          $235,164          $4,098

           10/01/99 - 09/30/00      12/22/00        $423,625          $487,503        ($63,878)

           10/01/00 - 09/30/01      10/29/01        $845,731          $916,864        ($71,133)

          Cumulative Totals                       $1,508,618        $1,639,531       ($130,913)




                                             3
                       Assistance Agreement No. X986516-01
                                             Costs         Expenditures
                            Date            Claimed        per General
         Period           Submitted         on FSRs          Ledger           Difference

  10/01/00 - 09/30/01      10/29/01         $136,000           $148,044        ($12,044)

Because costs claimed on the FSRs do not represent actual costs incurred under EPA
assistance agreements, and because CenSARA’s financial management system did not
meet the requirements of 40 CFR 30.21 (b)(1), we were unable to identify the specific
costs claimed by CenSARA.

CenSARA’s Comments

CenSARA agreed that it did not report actual outlays. Also, the audit team did not
take into account program income that was applied back into the accounts. This
difference accounts for a part of the discrepancies listed in the above tables.
CenSARA also stated that it has reallocated its labor costs and its direct and indirect
costs, so that all costs have been properly expensed. Consequently, all costs have
been properly accounted for and supported in accordance with OMB Circular A-122.
As part of reallocating the labor costs and indirect costs, CenSARA has adjusted the
general ledgers and revised the FSRs.

Auditor’s Response

We obtained copies of the revised draft FSRs. However, these FSRs were not dated
or signed by CenSARA. Thus, our finding remains unchanged. However, before the
issues identified in this report can be resolved, the action official will need to consider
the following questions:

1.    What indirect cost allocation method is CenSARA using?
2.    What labor was reallocated to what projects?
3.    What specific adjustments were made to the general ledger?
4.    What costs were considered indirect costs?
5.    What costs were considered direct costs?
6.    What specific method did CenSARA use for allocating indirect costs and
      computing the indirect cost rates? Is this method in writing?
7.    Does CenSARA have any written procedures defining direct and indirect costs?
8.    What is the indirect cost allocation base?
9.    Did CenSARA allocate indirect costs to the Baylor contract, the two state grants,
      the Texas-funded workshop, and the Louisiana contract?
10.   Why were no indirect costs shown on the FSR for the period ended September
      30, 1999?

                                     4
         11.   Did CenSARA submit indirect costs rate proposals for approval?
         12.   Is CenSARA planning on revising its financial statements for the years that the
               general ledger has been revised?
         13.   Do the FSRs reconcile with the general ledger?

Inadequate Labor Distribution System

          CenSARA did not maintain an adequate labor distribution system to track labor efforts
          spent on each project or final cost objective. Therefore, CenSARA’s time distribution
          system did not meet the minimum requirements of OMB Circular A-122, Attachment
          B, as required by 40 CFR 30.27. As a result, we were unable to determine whether
          the labor costs recorded in the general ledger were allowable and allocable to the EPA
          assistance agreements.

          OMB Circular A-122 requires that CenSARA maintain reports reflecting the
          distribution of activity for each employee whose compensation is charged, in whole or
          in part, directly to a grant. These reports must account for an after-the-fact
          determination of the actual activity for each employee. Budget estimates and allocations
          of salary expense based on predetermined percentages do not qualify. The same
          records are needed for employees with portions of salaries being allocated indirectly to
          assistance agreements. Furthermore, agreement number X996940-01 was amended
          five times to add various state projects to the scope of work. The amendments
          indicated that multiple appropriations were used to fund the amendments, and that
          CenSARA was required to account for and bill each project and activity.

          Labor claimed under the EPA assistance agreements was not based on actual hours
          worked. Employees prepared time sheets but did not specifically identify any grant
          projects or final cost objectives. Further, CenSARA did not use the time sheets to
          record salary costs in the general ledger. Instead, CenSARA charged all employee
          salaries, including vacation, holiday, and sick leave, to Assistance Agreement
          No. X996940-01. No labor was charged to Assistance Agreement No. X986516-01
          or any non-EPA project. Without an adequate labor distribution system, we could not
          determine how much of these expenses should have been allocated to each final cost
          objective.

          CenSARA Comments

          CenSARA stated that it had only one grant (X996940-01) during the period May 5,
          1998 through April 7, 2000, thus all costs were correctly attributed to grant
          X996940-01. The only period in question was during April 7, 2000 to September 30,
          2001.




                                             5
CenSARA has upgraded its personnel activity reports in accordance with OMB
Circular A-122, to more effectively account for and allocate labor costs. This new
system identifies the labor effort to be charged to any of CenSARA’s funding sources,
Federal and non-Federal; separates direct from indirect costs; and identifies different
activities under each funding source. CenSARA also stated that it has reallocated its
labor costs so that all costs have been properly expensed. As a result of reallocating
the labor and indirect costs, CenSARA adjusted its general ledger and revised the
FSRs.

Auditor’s Response

We disagree with CenSARA’s contention that it only had one project during the period
May 5, 1998 through April 7, 2000. During this period, CenSARA had a contract
with Baylor University which generated income of approximately $679,067 plus interest
of $24,813. The funds for the contract came from the Texas Natural Resource
Conservation Commission. The Commission stated that the interest earned on the
funds would cover CenSARA’s time since CenSARA was not taking an official
percentage of the costs. However, CenSARA did not identify any labor activity and
corresponding expense for the Baylor contract.

During the period October 1, 1997 through September 30, 1998, CenSARA received
two state grants from Missouri and Oklahoma. CenSARA charged all salary costs to
the two grants during this period even thought it may have started work on the new
EPA grant, X996940-01. Also, during the same period CenSARA was working on
the Baylor University contract, CenSARA earned income of $15,000 for a
Texas-funded workshop. Again, no labor costs were charged to this workshop.
Instead, beginning on October 1, 1998, all payroll costs were inappropriately charged
entirely to EPA grant number X996940-01. Finally, CenSARA charged the labor
costs to procure equipment and services for different states. These labor costs are not
allowable charges to the EPA grants because procurement activity by itself does not
meet the authorized used of the Clean Air Act, Section 103.

With respect to the new labor distribution system and the redistributed labor, we are
unable to comment on the new system and the redistributed labor since the new
procedures were not provided to us.

In summary, CenSARA did not provide us with any documentation to determine
whether the labor costs recorded in the general ledger and charged to EPA grants were
allowable and allocable costs under Federal regulations. Further, as discussed below,
CenSARA claimed outlays did not reconcile with the general ledger; thus, we are still
unable to determine what portion of the labor costs recorded in the general ledger were
claimed under the EPA assistance agreements.



                                   6
Unsupported Direct Costs

          We were not able to evaluate the claimed direct costs because CenSARA improperly
          charged all indirect type costs – such as rent, office supplies, postage, telephone, and
          depreciation – to one EPA assistance agreement (X996940-01). No other projects or
          EPA assistance agreements were allocated or charged for any of these types of indirect
          costs.

          Since these costs benefitted more than one cost objective, the costs are not allowable
          direct costs. CenSARA did not: (1) have written accounting procedures regarding
          allocation of joint costs, (2) develop an indirect cost rate to allocate costs benefitting
          multiple projects or assistance agreements, and (3) submit indirect cost proposals that
          would distinguish indirect from direct costs. Normally, indirect type costs are allocated
          to projects through an indirect cost rate or rates. Title 40 CFR 30.21(b)(6) requires
          CenSARA’s financial management system to include written procedures for
          determining allocability of costs. Without written procedures or an indirect cost plan,
          we cannot properly evaluate direct costs charged to the assistance agreements.

          In developing written procedures, CenSARA needs to address the requirements of
          OMB Circular A-122. Specifically, CenSARA needs to address: (1) the allocability of
          costs (Attachment A, paragraph A.4); (2) the three allocation methods authorized for
          indirect costs (Attachment A, paragraph D); (3) definition of direct and indirect costs
          (Attachment A, paragraphs B and C); and (4) the negotiation and approval of indirect
          cost rates (Attachment A, paragraph E).

          CenSARA Comments

          CenSARA reiterated it position that it had only one grant for the majority of the project
          period, and it would be correct to assume that all costs should be allocated to this
          source. CenSARA agreed that for the small portion of the audit period where it had
          two assistance agreements, the costs were not correctly charged.

          With respect to written accounting principles, CenSARA disagreed with the draft
          report but stated that it was in the process of upgrading its financial management
          manual, and a preliminary draft of the procedures was provided to Region 6.

          CenSARA indicated it did not understand what was required to distinguish indirect
          costs from direct costs. However, CenSARA plans to work with Region 6 to establish
          an indirect rate and will submit an indirect cost rate package to Region 6 as soon as
          possible. Meanwhile, CenSARA will assume an indirect cost rate based on “our
          experience mode.”




                                              7
                Auditor’s Response

                Again, we disagree with CenSARA that it had only one grant or project during the
                majority of the audit period. From October 1, 1998 through September 30, 2001,
                CenSARA improperly charged all of its indirect type costs – such as rent, office
                supplies, postage, telephone, and depreciation – direct to EPA grant X996940-01.
                During this same period, CenSARA also had one other EPA grant (X986516-01),
                contracts with Baylor University and the State of Louisiana, and earned income from
                workshops. However, no indirect type costs were allocated to any of these other
                projects.

                Also, during the period October 1, 1997 through September 30, 1998, CenSARA
                charged all of it depreciation expenses1 to EPA grant X996940-01, but all its salaries
                and payroll costs were charged entirely to the two state grants awarded by Missouri
                and Oklahoma. We do not understand the rationale for charging all depreciation
                expenses to one grant when all the labor costs are charged to other projects. This
                practice seems inconsistent with accounting requirements in OMB Circular A-122.
                According to OMB Circular A-122, indirect costs are those that have been incurred
                for common or joint objectives and cannot be readily identified with a particular final
                cost objective. Normally, indirect type costs are allocated to projects through an
                indirect cost rate or rates. Thus, when a grantee has multiple projects it is necessary to
                properly allocate indirect type expenses to all benefitting projects to ensure an equitable
                allocation of costs. This was not done.

                With respect to the written accounting procedures, we are unable to comment on those
                procedures because we were not furnished a copy of the procedures.

                In summary, CenSARA did not provide us with any documentation to determine
                whether the direct costs recorded in the general ledger were allowable and allocable to
                the EPA assistance agreements. Further, as discussed below, CenSARA’s claimed
                outlays did not reconcile with the general ledger; thus, we are still unable to determine
                what portion of the direct costs recorded in the general ledger were claimed under the
                EPA assistance agreements.

Improper Procurement Practices

                Under Assistance Agreement No. X996940-01, CenSARA: (1) did not competitively
                procure equipment and services, and (2) did not perform cost or price analysis for the
                purchases of equipment and services.



        1
          Since CenSARA relies on Federal funds for most of its income, it is unclear what depreciable
assets it might own that would be an allowable direct charge to EPA grants.

                                                    8
The provisions of 40 CFR 30.43 provide that all procurement transactions shall be
conducted in a manner to provide, to the maximum extent practical, open and free
competition. Further, 40 CFR 30.45 requires some form of cost or price analysis to be
made and documented in the procurement files in connection with every procurement
action. Price analysis may be accomplished in various ways, including the comparison
of price quotations submitted, market prices, and similar indicia, together with
discounts. Costs analysis is the review and evaluation of each element of cost to
determine reasonableness, allocability, and allowability.

For the contract procurements, the state agencies selected the contractors, prepared
the contract documents, and CenSARA signed the contracts. The state agencies
managed the contracts, reviewed and approved invoices, and forwarded the invoices to
CenSARA for payment. CenSARA did not solicit any bids, and did not perform cost
or price analyses for the sole source contracts awarded. As of September 30, 2001,
CenSARA incurred $403,726 in contract expense under nine sole source contracts.

Similarly, for the equipment purchases, the state agencies prepared and forwarded to
CenSARA the purchase requests. The purchase requests identified the vendor,
quantities, total purchase price, and the justification for the purchase. CenSARA
purchased the equipment and instructed the vendor to ship the equipment directly to the
requesting state agency. Once the equipment was received, CenSARA transferred the
title to the equipment to the state agencies. CenSARA did not solicit any bids, and did
not perform cost or price analyses for any of the equipment purchases. As of
September 30, 2001, CenSARA incurred $172,017 for equipment purchases.

CenSARA indicated that various state agencies requested that CenSARA procure
contracts and equipment for specific projects. According to CenSARA, the state
agencies would solicit bids, perform cost or price analysis, and select the contractors
and vendors. CenSARA said that the states maintained the cost or pricing data but
could not provide any support that the cost or price analysis had been performed by the
states. There is no assurance that costs of $575,743, to obtain equipment and services
under these EPA grants, are reasonable. Therefore these costs are not allowable under
Federal rules.

CenSARA’s Comments

CenSARA agreed that it did not have documentation readily available in its files for the
audit team. To correct this oversight, CenSARA has requested the justifications from
the requesting states and will in the future ensure that the justifications or price cost
analysis is in the file with the award.




                                    9
Auditor’s Response

CenSARA did not provide any contemporaneous bidding information or cost or pricing
data to support the procurement under the nine sole source contracts totaling $403,726
or the purchases of goods and services totaling $172,017, a total of $575,743.
Accordingly, these costs are unsupported and should be recovered to the extent that
these costs have been claimed. However, as previously discussed, CenSARA’s
claimed outlays did not reconcile with the general ledger; thus, we are still unable to
determine what portion of the contract and procurement costs recorded in the general
ledger were claimed under the EPA assistance agreements. For future purposes, we
recommend that the cost or pricing analysis be retained in the files.




                                  10
                          Recommendations
We recommend that EPA Region 6:

1.   Recover all assistance agreement funds that cannot be supported in accordance with 40
     CFR Part 31 and OMB Circular A-122 within 180 days of the date of this report.

2.   Suspend work under the current agreements and make no new awards until CenSARA
     can demonstrate that its accounting practices are consistent with Federal requirements (see
     recommendation number 4).

3.   Recover the costs of $575,743 for equipment and services unless CenSARA can show
     that the requirements of 40 CFR 30.40 through 30.47 were met, including justification for
     sole-source procurement under 40 CFR 30.46

4.   Require CenSARA to modify its financial management system to meet the requirements of
     40 CFR 30.21. At a minimum, CenSARA’s system must:

     a.    Ensure that financial results are current, accurate, and complete.

     b.    Include records that adequately identify source and application of funds for
           Federally-sponsored programs.

     c.    Include written procedures to determine reasonableness, allocability, and allowability
           of costs in accordance with OMB Circular A-122.

     d.    Include accounting records that are supported by adequate source documentation.

     e.    Require CenSARA to establish an adequate time distribution system that meets the
           requirements of OMB Circular A-122, Attachment B, paragraph 7. The system
           should account for total hours worked and leave taken, and identify the specific
           activities the employees performed during the pay period. It should also serve as the
           basis for charging labor costs to Federal grants and cooperative agreements.

     f.    Require CenSARA to allocate indirect costs in accordance with OMB Circular
           A-122.

     g.    Require CenSARA to follow all procurement standards under 40 CFR 30.40
           through 30.48.




                                           11
12
                                Agency Comments
As previously discussed, Region 6 provided comments on the draft report. Although we considered
these comments, we consider them to be pre-decisional because the final report is subject to the
process outlined in EPA Manual 2750. Therefore, Region 6's preliminary comments are not included in
this report.




                                                13
14
                                          Background
On May 5, 1998, and April 7, 2000, EPA awarded Assistance Agreement Nos. X996940-01 and
X986516-01, respectively, to CenSARA, headquartered in Oklahoma City, Oklahoma. CenSARA is
an association of air quality agencies in nine states located in EPA Regions 5, 6, and 7, and several
local governments in those regions. The States are: Arkansas, Iowa, Kansas, Louisiana, Minnesota,
Missouri, Nebraska, Oklahoma, and Texas.

The following table provides some basic information about the authorized project periods and the
amounts awarded under the assistance agreements covered by this audit.


          Assistance              EPA            Grantee          Total                Project
         Agreement No.            Share           Share           Costs                Period

           X996940-01          $2,226,243           $0         $2,226,243       05/05/98 - 09/30/02

           X986516-01          $1,000,000           $0         $1,000,000       04/10/00 - 03/31/03

        Assistance Agreement No. X996940-01: This provided funding to establish CenSARA, a
        Regional Multi-State Organization. The mission of CenSARA is to promote the exchange of
        information between its states and other interested parties related to the control of air pollution.
        Activities under the assistance agreement included training courses and other projects, such as
        ozone mapping. The Federal share was 100 percent of total costs.

        Assistance Agreement No. X986516-01: This provided funding to establish the
        infrastructure for a Regional Planning Body to enable the states to work together to reduce and
        prevent air pollution. The Regional Planning Body is to develop proposals to be reviewed and
        considered by the various member states and tribes, when developing State Implementation
        Plans, to address regional haze issues. The Federal share was 100 percent of total costs.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

        Claimed Costs:           Program outlays identified by CenSARA on the Financial Status
                                 Report (Standard Form 269 or 269A).

        Unsupported
        Questioned Costs:        Adjustments made by the Office of Inspector General because the
                                 claimed costs are not supported by adequate documentation and/or
                                 have not been approved by a responsible agency official.




                                                     15
16
                     Appendix A

CenSARA’s Response




        17
18
19
20
21
22
                                                                                 Appendix B

                                      Distribution
Region 6

      Assistant Regional Administrator for Management (Action Official)
       (Responsible for report distribution to recipient.)
      Director, Multimedia Planning and Permitting Division (6PD)
      Audit Coordinator (6MD RC)

Headquarters

      Director, Grants Administration Division (3903R)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Communications, Education, and Media Relations (1101A)

Office of Inspector General

      Inspector General (2410)




                                               23
